HHS/OIG, Audit -"6-State Rollup Review of Medicaid Drug Rebate Collections,"(A-07-04-04030)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"6-State Rollup Review of Medicaid Drug Rebate Collections," (A-07-04-04030)
February 26, 2004
Complete
Text of Report is available in PDF format (405 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine whether the six State agencies in Region VIII (Utah, Wyoming, Colorado, Montana,
North Dakota, and South Dakota) had established adequate accountability and internal controls over their respective Medicaid
drug rebate programs.  Individual reports were issued to each State agency, and this report summarizes the issues
identified in those reports.
The State agencies in Utah, Wyoming and Montana had not established adequate accountability and controls over their Medicaid
drug rebate programs.  As a result, there was no assurance that all drug rebates due to those States were collected.  North
Dakota, Colorado and South Dakota had generally established adequate controls and procedures.  However, we did make
specific recommendations regarding their programs to address minor weaknesses.  Specific recommendations were made
to each of the State agencies that addressed the weaknesses described above.  All but one of the six State agencies
generally agreed with our findings and recommendations and indicated that corrective action had been enacted or was planned.  Wyoming
did not concur with our findings.